No. 20-444
_____________
IN THE
SUPREME COURT OF THE UNITED STATES

United States,

Petitioner,
v.
Michael Andrew Gary,

Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fourth Circuit

MOTION TO PROCEED IN FORMA PAUPERIS

Kimberly Harvey Albro
OFFICE OF THE FEDERAL PUBLIC
DEFENDER
1901 Assembly Street,
Suite 200
Columbia, SC 29201

Jeffrey L. Fisher

Counsel of Record

Brian H. Fletcher
Pamela S. Karlan
STANFORD LAW SCHOOL
SUPREME COURT LITIGATION CLINIC
559 Nathan Abbott Way
Stanford, CA 94305
(650) 724-7081
jlfisher@law.stanford.edu

MOTION TO PROCEED IN FORMA PAUPERIS
Respondent Michael Andrew Gary respectfully requests leave to file a
response to the United State’s Petition for Writ of Certiorari without
prepayment of costs and to proceed in forma pauperis. Appellate counsel was
appointed under 18 U.S.C. § 3006A by the U.S. District Court for the District
of South Carolina. A copy of that appointment is attached. In light of this
prior appointment, no affidavit or declaration of respondent is attached. See
S. Ct. R. 39.1.
CONCLUSION
For the foregoing reasons, the motion to proceed in forma pauperis should
be granted.
Respectfully submitted,
Kimberly Harvey Albro
OFFICE OF THE FEDERAL PUBLIC
DEFENDER
1901 Assembly Street,
Suite 200
Columbia, SC 29201

Dated: December 8, 2020

Jeffrey L. Fisher

Counsel of Record

Brian H. Fletcher
Pamela S. Karlan
STANFORD LAW SCHOOL
SUPREME COURT LITIGATION CLINIC
559 Nathan Abbott Way
Stanford, CA 94305
(650) 724-7081
jlfisher@law.stanford.edu

3:17-cr-00809-JFA

Date Filed 09/19/17

Entry Number 13

Page 1 of 1

